      Department of Homeland Security




    The State of Montana’s Management of State
 Homeland Security Program Grants Awarded During
           Fiscal Years 2007 through 2009




OIG-12-16                                December 2011

                                                                    Office
                                                                    Offce ofInspector
                                                                           of Inspector General
                                                                                        General

                                                                   U.S.Department
                                                                   U.S. Department of Homeland
                                                                                      Homeland Security
                                                                                               Security
                                                                   Washington,DC
                                                                   Washington, DC 20528
                                                                                  20528




                                                                    Homeland
                                                                    Security
                                                                    Securi ty

                        DEC 09 2011
                        DEe 09  2011

                                              Preface

The    Department
The Department of of Homeland
                     Homeland Security Security                                           (GIG) was
                                                     (DHS) Office of Inspector General (OIG)
                                       (DHS) Office of

established by the Homeland Security Security Act  Act of2002
                                                       of2002 (Public Law 107-296) by amendment
to the Inspector General Act of     of 1978.
                                         1978. ThisThis is
                                                        is one
                                                           one of
                                                               of a series of
                                                                           of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the State of Montana's
                                       Montana's management
                                                  management of  ofState
                                                                    State Homeland
                                                                           Homeland Security
                                                                                       Security
Program grants.
          grants. We   contracted   with the independent  public   accounting
                   We contracted with the independent public accounting         firm  Foxx  &
                                                                                            &
Company to
Company     to perform
               perform the
                        the audit.
                             audit. The
                                    The contract required that
                                                            that Foxx
                                                                 Foxx & Company
                                                                           Company perform its
audit according toto generally accepted
                                 accepted government
                                          government auditing
                                                        auditing standards.
                                                                  standards. Foxx &  &
Company's report
Company's     report identifies
                     identifies four
                                four reportable
                                      reportable conditions
                                                 conditions where
                                                             where State
                                                                     State management
                                                                            management of ofthe
                                                                                             the
grant funds could be improved, resulting in 13 recommendations addressed to the
Assistant Administrator, Grants Programs
                                     Programs Directorate.
                                               Directorate. Foxx
                                                             Foxx & & Company is responsible
for the attached auditor's report dated November 18,2011,
                                                      18,2011,and and the
                                                                       the conclusions
                                                                            conclusions expressed
                                                                                        expressed
in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft
                                       draft with those
                                                   those responsible
                                                         responsible for
                                                                      for implementation.
                                                                           implementation. We
trust this report will
                  wil result in more   effective,
                       result in more effective,  efficient, and economical   operations. We
                                                                 economical operations.
express our appreciation to all of

                                           ~ifi
                                  of those who contributed to the preparation


                                           ~ifdJ
                                          Ãne
                                          AnneL.L.Ricnards
                                                   Ricnards
                                                                     preparation of



                                          Assistant Inspector General for Audits
                                                                                 ofthis
                                                                                    this report.
                                                                                         report.
 




November 18, 2011

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of Montana’s management of the
Department of Homeland Security’s State Homeland Security Program grants for Fiscal
Years 2007 through 2009. The audit was performed in accordance with our Task Order
No. 11 under TPD-FIG-BPA-07-0007 dated September 28, 2010. This report presents
the results of the audit and includes recommendations to help improve the State’s
management of the audited State Homeland Security Program grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Montana’s financial statements or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,


Foxx & Company
Martin W. O’Neill
Partner
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 2 


     Measurement of Goals and Objectives ........................................................................ 3 

     Recommendations ........................................................................................................ 7 

     Management Comments and Auditors’ Analysis ........................................................ 7 


     Compliance with Property Management Requirements .............................................. 8 

     Recommendations ...................................................................................................... 10 

     Management Comments and Auditors’ Analysis ...................................................... 10 


     Subgrantee Performance Monitoring ......................................................................... 11 

     Recommendations ...................................................................................................... 13 

     Management Comments and Auditors’ Analysis ...................................................... 14 


     Financial Management Controls ................................................................................ 15 

     Recommendations ...................................................................................................... 18 

     Management Comments and Auditors’ Analysis ...................................................... 18 



Appendices 

     Appendix A:           Purpose, Scope, and Methodology ..................................................... 20 

     Appendix B:           Management Comments to the Draft Report ..................................... 24 

     Appendix C:           Homeland Security Grant Program Background ............................... 42 

     Appendix D:           Montana State Administrative Agency Organization Chart .............. 43 

     Appendix E:           Report Distribution ............................................................................ 44 


Abbreviations 

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    fiscal year           

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    Public Law 110-53, Implementing Recommendations of the 9/11
                    Commission Act of 2007, requires the Department of Homeland
                    Security, Office of Inspector General, to audit individual states’
                    management of State Homeland Security Program and Urban
                    Areas Security Initiative grants. This report responds to the
                    reporting requirement for the State of Montana.

                    The objectives of the audit were to determine if the State of
                    Montana distributed and spent State Homeland Security Program
                    grant funds (1) effectively and efficiently and (2) in compliance
                    with applicable federal laws and regulations. In addition, the
                    extent to which grant funds enhanced the State of Montana’s
                    ability to prevent, prepare for, protect against, and respond to
                    natural disasters, acts of terrorism, and other man-made disasters
                    were addressed. The audit included a review of approximately
                    $16.5 million in State Homeland Security Program grant funds
                    awarded to Montana during fiscal years 2007 through 2009.

                    Generally, Montana did an efficient and effective job of
                    administering program requirements in accordance with grant
                    guidance and regulations. The State’s plans linked funding to all-
                    hazard capabilities and to goals that were established based on risk
                    assessments.

                    However, we identified four areas for improvement: measurement
                    of goals and objectives, compliance with property management
                    requirements, subgrantee performance monitoring, and financial
                    management internal controls.

                    Our 13 recommendations call for the Federal Emergency
                    Management Agency (FEMA) to initiate improvements which, if
                    implemented, should help strengthen program management,
                    performance, and oversight.

                    FEMA and Montana officials provided written comments and
                    concurred with our findings and recommendations. Their
                    comments are included in their entirety in appendix B.


        The State of Montana’s Management of State Homeland Security Program Grants 

                       Awarded During Fiscal Years 2007 through 2009 


                                          Page 1

Background
                    The Homeland Security Grant Program provides federal funding to
                    help state and local agencies enhance capabilities to prevent,
                    protect against, respond to, and recover from terrorist attacks,
                    major disasters, and other emergencies.

                    The State of Montana (State) received $19.7 million in Homeland
                    Security Grant Program funds over the course of fiscal years (FY)
                    2007, 2008, and 2009, $16.5 million of which was State Homeland
                    Security Program grants. Appendix A provides details on the
                    purpose, scope, and methodology for this audit, and appendix C
                    provides background on the Homeland Security Grant Program.

                    The Governor of Montana designated the Montana Disaster and
                    Emergency Services, Department of Military Affairs, as the State
                    Administrative Agency, the entity responsible to administer the
                    Homeland Security Grant Program. The State Administrative
                    Agency is responsible for managing the grant programs in
                    accordance with established federal guidelines and allocating funds
                    to local, regional, and other state government agencies. The
                    Montana State Administrative Agency organization is depicted in
                    appendix D.

                    Within Montana, the State Administrative Agency subawarded
                    Homeland Security Grant Program funds to 25 separate
                    subgrantees during FYs 2007 through 2009.

Results of Audit
     Montana’s Grants Management Practices Were Generally
     Effective, But Required Some Improvements
           Generally, the State did an efficient and effective job of administering
           program requirements in accordance with grant guidance and regulations.
           The State’s plans linked funding to all-hazard capabilities and to goals that
           were established based on risk assessments. However, improvements were
           needed to enhance Montana’s management of the grants in the areas of:

                   Measurement of goals and objectives,
                   Compliance with property management requirements,
                   Subgrantee performance monitoring, and
                   Financial management internal controls.


        The State of Montana’s Management of State Homeland Security Program Grants 

                       Awarded During Fiscal Years 2007 through 2009 


                                          Page 2

      We have made 13 recommendations that are designed to enhance the
      effectiveness of the State’s grants management and overall use of the grant
      funds to improve preparedness and response capabilities.

Measurement of Goals and Objectives
      The Montana State Administrative Agency could not demonstrate
      improvement and accomplishments resulting from the State Homeland
      Security Program awards. The Agency had not developed measurable
      goals and objectives consistent with federal requirements which provided
      an adequate basis for measuring improvements in the State’s preparedness
      and response capabilities. Also, the Agency did not have an effective
      systematic method for the collection of performance-related data. As a
      result, the State does not have a system to evaluate and document the
      effect that grant funds had on the capability of the State Administrative
      Agency and the subgrantees.

      Code of Federal Regulations Title 44 §13.40 (a), Monitoring and
      reporting program performance, requires that grantees monitor grant and
      subgrant supported activities to assure that performance goals are being
      achieved. In addition, Department of Homeland Security (DHS) State and
      Urban Area Homeland Security Strategy, Guidance on Aligning Strategies
      with the National Preparedness Goal, dated July 22, 2005, states that an
      objective sets a tangible and measurable target level of performance over
      time against which actual achievement can be compared, including a goal
      expressed as a quantitative standard, value, or rate. Therefore, an
      objective should meet the following criteria:

              Specific, detailed, particular, and focused — helping to identify
               what is to be achieved and accomplished;
              Measurable — quantifiable, providing a standard for comparison,
               and identifying a specific achievable result;
              Achievable — the objective is not beyond a State, region,
               jurisdiction, or locality’s ability;
              Results-oriented — identifies a specific outcome; and
              Time-limited — a target date exists to identify when the objective
               will be achieved.

      Table 1 identifies shortcomings with two of Montana’s goals and
      objectives from its 2007 Strategic Plan. These two are typical examples
      from the State’s nine goals.




   The State of Montana’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2007 through 2009 


                                     Page 3

Table 1: Examples of FY 2007 Strategic Plan Goals and Objectives Shortcomings
 Strategic Goal #2: Establish and strengthen a statewide interoperable public safety
 communication system.
                 OBJECTIVES                                   SHORTCOMINGS
 2.1 Implement the Statewide Interoperable       No target date for completion. No expression
 Public Safety Radio Communications Plan         of specific outcome such as documenting
 recommended by the Statewide                    results of implementation.
 Interoperability Executive Council.
 2.2 Deploy backbone technology across           No target date for completion. No details on
 large geographic regions and subsequently to    identifying regions, areas, or users.
 deploy digital technology to all users.
 2.3 Design and implement a statewide            No target date for completion. No criteria as
 enhanced 911 network.                           to what constitutes “enhanced.” No
                                                 expression of specific outcome such as
                                                 documenting results of implementation.
 2.4 In conjunction with the Public Safety       No target date for completion. Open-ended.
 Services Office continue planning, assisting,   Specific outcome such as documentation of
 education and implementation of public          shared information not expressed.
 safety communications projects in Montana.
 2.5 Develop an education and outreach           Meets criteria.
 program within six months.
 2.6 Procure equipment to enhance                No criteria as to what constitutes “enhance.”
 interoperable communications using              No target date set for completion.
 available funding.
 2.7 Support planned exercises.                 No target date for completion. No expression
                                                of specific outcome such as how exercises
                                                will be identified or information shared after
                                                completion.
 Strategic Goal #7: Strengthen chemical, biological, radiologic, nuclear, explosive (CBRNE)
 decontamination, detection, and response.
                 OBJECTIVES                                  SHORTCOMINGS
 7.1 Enhance geographic information             No target date for completion. No specifics
 systems capabilities to support the planning,  as to which capabilities will be enhanced.
 response, and recovery of a CBRNE event.
 7.2 Sustain advance hazmat, explosive          No target date for completion. No provisions
 ordnance disposal, and tactical law            for identifying law enforcement capabilities
 enforcement response capabilities.             or how capabilities would be sustained.
 7.3 Identify recovery measures associated      No target date for completion. No specifics
 with this goal.                                for how measures will be identified.
 7.4 Provide training to strengthen CBRNE       No target date for completion. No specifics
 detection, response, and decontamination       on who will be trained, how training is
 capabilities.                                  delivered, and how training results are
                                                measured.
 7.5 Exercise local, tribal, and state response No target date for completion. No criteria
 plans and procedures to test the level of      provided for assessing capabilities.
 detection, response, and decontamination
 capabilities.
 7.6 Identify the preventive detection aspects No target date for completion. No criteria for
 of CBRNE capabilities.                         determining which detection aspects will be
                                                identified and measured.




 The State of Montana’s Management of State Homeland Security Program Grants 

                Awarded During Fiscal Years 2007 through 2009 


                                      Page 4

   Taken as a whole, the State’s goals and objectives:

           Were broad-based,
           Were not always in compliance with the federal requirements, and
           Did not allow for the measuring progress in preparedness and
            response capabilities.

   The lack of measurement capability, specifics, and target completion dates
   in the state-wide goals and objectives also impacted the measurement of
   progress at the subgrantee level.

   The Montana State Administrative Agency required subgrantees to
   periodically submit standardized progress reports as a part of the
   subgrantee award letter package. The report form requested that the
   subgrantee describe the activities accomplished during the preceding
   quarter, any difficulties in accomplishing activities or needed timeframe
   readjustments, and funding used during the period. Not all subgrantees
   submitted progress reports and, of those that did, the information was
   unclear and did not relate to measuring improvement.

   We found that the subgrantee progress reports did not contain information
   that would enable the State to measure and oversee the progress made in
   achieving the goals, objectives, and milestones identified for the
   individually funded programs. For example, the FY 2007 Interoperability
   Montana investment justification requested $3.7 million to meet five
   milestones. However, the progress reports for this grant did not indicate
   how well the funds were being spent, nor did the reports specifically
   discuss the progress being made on particular milestones prior to the
   milestones being reached. Table 2 shows the milestones and the progress
   made as of June 30, 2010, as reported by the subgrantee.

               Table 2: Milestone Status on FY 2007 Interoperability 

               Montana Investment Justification (as of June 30, 2010)

                                                             Milestone Status
                        Milestone
                                                          (as of June 30, 2010)
   1. Complete site acquisition, building, and equipment          Sites were complete.
      installation for three Northern Tier sites.
   2. Tie the master controller at Helena to the Northern Tier.   No status given.

   3. Adopt standard operating procedures in accordance with      No status given.
      SAFECOM (public safety communications) guidelines.
   4. Outfit and train 14 law enforcement officials to use        Training plan submitted to
      radios compatible with the new towers                       the State Administrative
                                                                  Agency for approval.
   5. Test and evaluate the system.                               An exercise was being
                                                                  planned for later in 2010.



The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                      Page 5

   While the milestones are specific and are capable of measurement, the
   progress reports are incomplete and did not provide information during the
   grant period concerning the extent to which the milestones were met or
   would be delayed. For example, concerning Milestone 1, the June 2010
   report noted that the sites were complete and inspected but no mention
   was made as to whether or not the sites were operational. For 2008 and
   2009, the subgrantee progress reports did not report on whether or not the
   milestone would be met.

   Milestone 2 indicated that upon tower completion, the towers were to be
   tested for connectivity to a radio controller in Helena, Montana.
   Completion was scheduled for December 2008 but no activity was
   reported until the March 2009 progress report.

   Milestone 4 specified that 14 officers would be outfitted and trained to use
   radios. Outfitting and training was to be completed by December 2009.
   However, while initial progress on this milestone was reported in the
   March 30, 2009 progress report, it was not until the December 2009
   progress report that a request for training funds was reported.

   Because of minimal State Administrative Agency guidance as to what was
   expected of subgrantees in their progress reports, the subgrantees were left
   to interpret the degree to which accomplishments were reported. The
   State Administrative Agency did not request subgrantees to report on the
   status of achieving program goals, objectives, and milestones.

   The State Administrative Agency funded activities without knowing the
   extent that funds previously provided to subgrantees had impacted the
   subgrantee’s ability to meet specific program goals. Also, the State did
   not know the extent to which additional funds were needed for the
   individual programs.

   Without measurable goals and objectives and a mechanism to collect
   objective, results-oriented data from local jurisdictions and first
   responders, the State did not have a basis to evaluate the effect of grant
   expenditures on its preparedness and response capabilities. Also, the State
   was unable to determine progress toward goals and objectives when
   making funding and management decisions.




The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 6

   Recommendations
            We recommend that the Assistant Administrator, Grant Programs
            Directorate, require the Administrator, Montana Disaster and
            Emergency Services to:

            Recommendation #1: Develop strategic goals and objectives
            applicable to capabilities that are specific, measurable, achievable,
            results-oriented, and time limited.

            Recommendation #2: Develop performance measures and collect
            and analyze performance data from subgrantees to measure
            progress towards achieving goals and objectives.

            Recommendation #3: Require subgrantees to use the
            performance measures to report activity accomplishments in
            quarterly progress reports, including the status of goals, objectives,
            and milestone achievements.

            Recommendation #4: Summarize the progress reported each
            quarter by program and incorporate the progress and projected
            funding needs into the State’s process for preparing subsequent
            years’ applications for Homeland Security Grant Program funds.

   Management Comments and Auditors’ Analysis
            FEMA concurred with the findings and recommendations, and
            commented that it would benefit Montana to assess capabilities on
            an ongoing basis if the state has clearly stated goals and objectives.
            FEMA will request the State develop strategic goals and specific
            objectives applicable to capabilities, and submit the outline of the
            goals and objectives to FEMA within 90 days of receipt of the final
            report.

            FEMA noted that there is not sufficient evidence that Montana is
            aware of the progress subgrantees are making against the goals and
            objectives stated in their grant applications. FEMA attributed this
            deficiency to a staff shortage. FEMA will request the State
            develop performance measures and collect and analyze
            performance data from subgrantees to measure progress towards
            achieving goals and objectives. FEMA will also direct the
            Administrator, Montana Disaster and Emergency Services to
            ensure that there is sufficient qualified staff to oversee and
            administer all awards issued by FEMA, including subject matter


The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 7

               experts. These actions are to be completed within 90 days of
               receipt of the final report.

               Concerning quarterly progress reports, FEMA will request the
               State to require subgrantees to report accomplishments in quarterly
               progress reports, including the status of goals, objectives, and
               milestone achievements. These actions are to be completed within
               90 days of receipt of the final report.

               FEMA will also request the State summarize the progress reported
               each quarter by program, and incorporate the progress and
               projected funding needs into the State’s process for preparing
               subsequent years’ grant applications. These actions will be
               completed within 120 days of receipt of the final report FEMA
               requested that recommendations 1 through 4 be resolved and open
               pending implementation of the stated corrective actions.

               Montana Disaster and Emergency Services officials also agreed
               with the findings and recommendations. They acknowledged that
               the State’s goals and objectives in the past have been too broad-
               based and the officials are in the process of making them more
               specific. Progress on measurable objectives will be reported by
               subrecipients on a quarterly basis using expanded reporting forms
               clearly demonstrating project progress. If progress is not
               sufficient, the subgrantee will be identified for monitoring,
               technical assistance, and withholding of funds until satisfactory
               progress is made. Montana officials also stated that they will
               submit quarterly reports to FEMA summarizing subgrantee
               progress.

               If properly implemented, the corrective actions proposed by
               FEMA and the State should resolve the condition identified in the
               audit. The recommendations are considered resolved, but will
               remain open until the corrective actions have been implemented.

Compliance with Property Management Requirements
      State subgrantees did not always maintain property management records
      in accordance with federal requirements. Property record requirements
      were not being followed at 14 of 22 subgrantees we visited. As a result,
      the State did not have reasonable assurance that the assets procured with
      federal funds were adequately safeguarded to prevent loss, damage, or
      theft of the property.



   The State of Montana’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2007 through 2009 


                                     Page 8

   Code of Federal Regulations Title 44 §13.32 (d) Management
   Requirements, establishes procedures for managing equipment (including
   replacement equipment), whether acquired in whole or in part with grant
   funds. Under Title 44 §13.3, Definitions, equipment means tangible, non-
   expendable, personal property having a useful life of more than one year
   and an acquisition cost of $5,000 or more per unit. The federal property
   management regulations include the following minimum requirements:

       	 Maintain property records that include a description of the
          property, a serial number or other identification number, the source
          of property, who holds title, the acquisition date, the cost of the
          property, percentage of Federal participation in the cost of the
          property, the location, use and condition of the property, and any
          ultimate disposition data including the date of disposal and sale
          price of the property.
       	 Take a physical inventory of the property and reconcile the results
          with the property records at least once every 2 years and maintain a
          control system to ensure adequate safeguards to prevent loss,
          damage, or theft of the property.
       	 Perform adequate maintenance procedures to keep the property in
          good condition.

   The federal requirements are included by reference in the state grant
   agreements with subgrantees.

   While FEMA guidance for the State Homeland Security Program requires
   grantees and subgrantees to follow federal requirements when managing
   and maintaining property management records for equipment purchased
   with grant funds, 14 of the 22 subgrantees who purchased equipment with
   State Homeland Security Program funding were not following this
   guidance. The following is a summary of these shortcomings.

       	 11 of the 14 subgrantees did not perform periodic physical 

          inventories which were required at least once every 2 years,

       	 7 of 14 subgrantees were unable to determine which fiscal years’
          State Homeland Security Program funds were used to procure
          equipment, and
       	 5 of 14 subgrantees did not mark or affix labels to indicate the
          property was purchased with Homeland Security funding.

   Subgrantee staff told us that they were not fully aware of the property
   management requirements or had not focused on their responsibilities
   concerning record keeping, documentation, and inventories. Nevertheless,
   the property management requirements were included in the grant award


The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 9

   letter and as a separate attachment in the grant agreements between the
   State and each subgrantee.

   In addition, we noted a unique situation that pertained to the title of assets
   procured for the Interoperability Montana program. At least one county
   subgrantee indicated that while they were responsible for erecting radio
   towers on county property, the county was unclear as to which entity
   actually owned the equipment—the county or Interoperability Montana.
   Also, the subgrantee was not sure which entity was ultimately responsible
   for maintenance.

   As a result, the State did not have reasonable assurance that the assets
   procured with federal funds were adequately safeguarded to prevent loss,
   damage, or theft of the property or if title was clearly established. Without
   the required property management records, the potential exists for poor
   internal control over the maintenance, safeguarding, and accounting for
   equipment procured with federal funds.

   Recommendations
            We recommend that the Assistant Administrator, Grant Programs
            Directorate, require the Administrator, Montana Disaster and
            Emergency Services to:

            Recommendation #5: Establish policies and procedures to
            enforce the property management requirements for equipment
            purchased with federal funds by subgrantees.

            Recommendation #6: Require subgrantees to furnish plans for
            performing biennial physical inventories within a specified
            timeframe and to provide details on how all subgrantees will
            become compliant with property management requirements.

            Recommendation #7: Clarify ownership of equipment furnished
            with federal funds particularly with arrangements between
            Interoperability Montana and its partner subgrantee jurisdictions.

   Management Comments and Auditors’ Analysis
            FEMA concurred with the findings and recommendations. FEMA
            commented that it will request that Montana Disaster and
            Emergency Services establish policies and procedures to enforce
            property management requirements for subgrantee equipment
            purchased with federal funds within 45 days of receipt of the final
            report. FEMA will request also that Montana furnish plans for

The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 10

               performing annual physical inventories and provide details on how
               all subgrantees will become compliant with property management
               regulations within 60 days of receipt of the final report.

               Concerning the issue of equipment ownership regarding
               Interoperability Montana and its partner jurisdictions, FEMA will
               request that Montana clarify ownership, and provide an inventory
               of all equipment purchased by Interoperability Montana with DHS
               grant funds. The list is to include, among other things, equipment
               identifiers, price, applicable grant program funding year, and the
               jurisdiction responsible for the equipment, and is to be completed
               within 30 days of receipt of the final report. FEMA requested that
               recommendations 5 through 7 be resolved and open pending
               implementation of the stated corrective action.

               The Montana Disaster and Emergency Services officials also
               agreed with the findings and recommendations, and stated they
               will update its property management policies to include inventory
               schedules, improved forms, lists of all items over $5,000, and
               physical inventories no less than every 2 years. The State will
               establish a schedule of subgrantee inventory due dates, and require
               submission with the subgrantee grant applications. Relating to
               Interoperability Montana and equipment ownership, Disaster and
               Emergency Services officials stated that verification of equipment
               has commenced, and that Interoperability Montana has submitted
               equipment transfer letters outlining ownership, signed by the
               partner subgrantees.

               If properly implemented, the corrective actions proposed by
               FEMA and the State should provide reasonable assurance that
               assets procured with federal funds are adequately safeguarded to
               prevent loss, damage, or theft; and that ownership is clearly
               delineated. The recommendations are considered resolved, but
               will remain open until the corrective actions have been
               implemented.

Subgrantee Performance Monitoring
      The Montana State Administrative Agency needs to improve subgrantee
      performance monitoring. In its February 2010 Single Audit Report on
      State Administrative Agency management of homeland security grants,
      the Montana Legislative Audit Division noted that in FY 2008, the
      Montana State Administrative Agency failed to monitor any of its
      subgrantees. Moreover, the report noted that, in FY 2007, the State
      Administrative Agency received notification of seven audit findings in

   The State of Montana’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2007 through 2009 


                                     Page 11

                 subgrantee audit reports. Additionally, the Legislative Audit report found
                 that the department’s subgrantee monitoring tracking spreadsheet did not
                 include six1 subgrantees. The Legislative Audit Division recommended
                 that the State Administrative Agency implement effective subgrantees
                 monitoring controls to ensure its subgrantees comply with the federal
                 requirements. However, the department did not issue management
                 decisions or require corrective action on five of the audit findings within
                 the required timeframe.

                 According to the Code of Federal Regulations Title 44 §13.40, Monitoring
                 and Reporting Program Performance, grantees are required to provide
                 day-to-day management of all grants and subgrant supported activities,
                 and ensure that grant recipients comply with applicable federal
                 requirements and achieve program performance goals. This regulation
                 also specifies that grantee monitoring programs cover each program,
                 function or activity, and require subgrantees to adhere to the same
                 performance monitoring and reporting standards as required of grantees.
                 The Montana State Administrative Agency also recommends that grant
                 recipients provide various documents to describe their activities and
                 expenditures.

                 Office of Management and Budget Circular A-133, Part 3-M, Subrecipient
                 Monitoring, also includes grantee monitoring requirements. Part 3-M
                 states that grantees are responsible for monitoring subgrantee use of
                 federal awards through reporting, site visits, regular contact, or other
                 means. Grantee monitoring should provide reasonable assurance that the
                 subgrantee administers federal awards in compliance with laws and
                 regulations, as well as the provisions of contracts or grant agreements.

                 The Montana State Administrative Agency management informed us that
                 no subgrantee site visits were made during the grant years that we
                 reviewed. Minimal oversight was accomplished through periodic contact
                 with subgrantee staff, review of subgrantee grant applications, and
                 processing of reimbursement requests. Montana State Administrative
                 Agency officials said that considerable staff turnover, including the State
                 Administrative Agency Director’s position, had been experienced in the
                 last several years. In addition, the officials said that the State
                 Administrative Agency’s ability to monitor subgrantees has been affected
                 by the limited number of staff available to do the monitoring. The three
                 fiscal year grants included in our review were essentially managed by one
                 individual.


1
 The scope of the Legislative Division audit included 84 subgrantees for all Homeland Security Grant
Programs including State Homeland Security Program. However, the State Administrative Agency only
accounted for 78 of the 84.

             The State of Montana’s Management of State Homeland Security Program Grants 

                            Awarded During Fiscal Years 2007 through 2009 


                                                Page 12

   For the three fiscal years we examined, Montana’s monitoring program
   procedures did not indicate how often monitoring visits would be
   conducted. Even as late as March 2011, no action had been taken on when
   site visits would begin nor had the State Administrative Agency made any
   site visits. However, in February 2011, a monitoring policy revision
   indicated that the State Administrative Agency would perform on-site
   visits for two separate subgrantees each fiscal year. State Administrative
   Agency officials said they have considered involving their six Montana
   state district representatives as more active participants in overall
   management. The Montana State Administrative Agency did hire a part-
   time contractor to monitor its largest subgrantee, Interoperability Montana
   in August 2010. The contractor worked four hours per day but had not
   visited the Interoperability Montana subgrantee as of April 2011.

   The State Administrative Agency’s sporadic contacts with subgrantee
   staff, the review of subgrantee grant applications, and processing of
   reimbursement requests are not sufficient to:

           Observe local administrative practices,
           Evaluate whether grant funds are being used effectively and
            efficiently,
           Determine whether subgrantees are complying with grant
            requirements and associated federal regulations, and
           Assess subgrantee progress in achieving preparedness goals and
            objectives.

   Montana’s on-site monitoring program was hampered because the State
   had not dedicated the necessary resources to monitor the subgrantees’
   performance. Moreover, the State Administrative Agency did not have
   adequate information to assess whether or not the subgrantees were
   efficiently and effectively using State Homeland Security Program grant
   funds to accomplish program objectives. Consequently, the State
   Administrative Agency did not provide necessary management support at
   the planning, execution, or review levels to enable consistent and
   responsible grant oversight.

   Recommendations
            We recommend that the Assistant Administrator, Grant Programs
            Directorate, require the Administrator, Montana Disaster and
            Emergency Services to:

            Recommendation #8: Establish policy and monitoring
            procedures that include the frequency of visits, methodology for


The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 13

            selecting subgrantees to visit, and a protocol for reviewing
            financial and performance related activities during the visits.

            Recommendation #9: Develop a uniform set of procedures for
            monitors to use during evaluations of subgrantee program
            performance to ensure consistency in the scope and methodology
            of the evaluations from subgrantee to subgrantee.

   Management Comments and Auditors’ Analysis
            FEMA concurred with the findings and recommendations.
            According to FEMA, subgrantee monitoring is critical to ensuring
            that projects are executed as planned and that subgrantees are in
            compliance with the terms of their grant agreements. FEMA will
            request that Montana, within 90 days of receipt of the final report,
            establish policy and monitoring procedures that will include,
            among other requirements:

                   A clear method for selecting subgrantees to be visited,
                   Frequency of monitoring visits each year, and
                   Processes to review and conduct analyses of subrecipients’
                    financial, programmatic, and administrative policies and
                    procedures.

            FEMA also said the State will be requested to establish a uniform
            set of monitoring procedures to facilitate consistency in the scope
            and methodology of the evaluation of subgrantees. The protocols
            are to be completed within 90 days of receipt of the final report.
            FEMA requested that recommendations 8 and 9 be resolved and
            open pending implementation of the stated corrective actions.

            Montana Disaster and Emergency Services officials also agreed
            with the findings and recommendations, and commented that the
            State had been monitoring subgrantees when the fiscal years 2007
            through 2009 grant awards were made and will continue to do so,
            as required. In this regard, our report and the Montana Legislative
            Audit Division found that subgrantee performance monitoring
            needed to be improved. Resource issues, incomplete monitoring
            procedures, and sporadic subgrantee contacts all contributed to
            inefficient monitoring.

            Montana noted that active monitoring, with both desk-top and site
            visits, has greatly increased in the last year (i.e., during fiscal year
            2010). Monitoring documentation has been enhanced and a grant
            monitoring cycle will be developed to include scheduled

The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 14

               monitoring, using both desk-top and site visits. The State will
               review and revise its standardized monitoring procedure, and use
               improved monitoring forms, designed during FEMA-provided
               technical assistance training in September 2011, during all
               monitoring visits.

               If properly implemented, the corrective actions proposed by
               FEMA and the State will resolve the condition identified during
               the audit. The recommendations are considered resolved, but will
               remain open until the corrective actions have been implemented.

Financial Management Controls
      The Montana Disaster and Emergency Services did not comply with
      federal requirements for financial grant management. We noted
      deficiencies which included (1) incomplete subgrantee file information
      regarding award letters and supporting documentation for reimbursement
      requests and (2) inadequate coordination between the State Administrative
      Agency and the supporting administrative office responsible for paying
      subgrantee invoices submitted for payment. As a result, Montana was not
      in compliance with federal financial management requirements, was not
      aware of the status of grant awards and expenditures, and could not assess
      the true costs of program performance.

      Code of Federal Regulations Title 44 §13.20, Standards for financial
      management systems and the Department of Homeland Security Financial
      Guide require that grantees maintain an accounting system together with
      adequate internal controls to assure grant expenditures are allowable,
      allocable, authorized, and consistent with federal, State, and grant
      requirements. The standards require also that the fiscal controls and
      accounting procedures:

          	 Permit preparation of reports required by federal laws and
             regulations authorizing the grant,
          	 Permit the tracing of funds to a level of expenditures adequate to
             establish that such funds have not been used in violation of the
             restrictions and prohibitions of applicable statutes,
          	 Provide for source documentation such as cancelled checks, paid
             bills, payrolls, time and attendance records, and subgrant award
             documents, and
          	 Enable actual expenditures to be compared with budgeted
             amounts.

      Montana State Administrative Agency subgrantee files were not always
      complete and did not permit corroboration with other documents. For

   The State of Montana’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2007 through 2009 


                                     Page 15

   example, State Administrative Agency officials could not provide
   supporting grant award letters that totaled $477,000 out of $3.4 million in
   awards which was selected for testing for fiscal years 2007 through 2009.
   Additionally, State Administrative Agency had difficulty reconciling
   subgrantee award amounts with expenditures even though State
   Administrative Agency prepared its budgets by these expense categories.
   We asked State Administrative Agency officials to prepare a schedule
   comparing the award amount with expenses classified as equipment,
   training, or exercises. A State Administrative Agency official stated that
   the schedule could not be completed in full because State Administrative
   Agency internal financial documents could not produce the necessary data.

   Concerning invoices, State Administrative Agency did not always have
   documentation in its files to support subgrantee reimbursement requests
   even though subgrantees were required to submit invoices. For fiscal
   years 2007 through 2009, State Administrative Agency officials could not
   provide supporting documents (i.e., invoices, payroll, or other relevant
   information) to support expenditures incurred by four subgrantees which
   totaled $938,601 as shown in the following table.

       Table 3: Unsupported Subgrantee Requests for Reimbursement 

               Made to Montana State Administrative Agency 

                Subgrantee            Expense Type               Amount
                       1            Invoices                       $39,294
                       2            Payroll                        $72,000
                       3            Payroll                      $159,175
                       4            Invoices                     $668,132
                    Total                                        $938,601

   Notwithstanding the issues with maintaining supporting documentation in
   its files, the State Administrative Agency revised its policy in July 2010
   and stipulated that subgrantees were no longer required to submit invoices
   as support for their reimbursement requests. The invoices were to be kept
   by the subgrantees and made available if requested by the State
   Administrative Agency.

   The State Administrative Agency did not keep its designated payment
   office, the Centralized Services Division, informed of the award amounts
   to individual subgrantees. Without this basic information, the Centralized
   Services Division did not know the current status of subgrantees’ accounts
   even though it was responsible for payment.


The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 16

   The State Administrative Agency did not provide copies of subgrantee
   award letters to its Centralized Services Division that showed how much
   each subgrantee was awarded. This information would have allowed the
   Centralized Services Division to keep a running comparison on budgeted
   amounts against actual subgrantee reimbursement requests. Without this
   information, the possibility existed that a subgrantee could be reimbursed
   for an amount larger than was awarded. In this regard, during our visits,
   we found one subgrantee that had actually been reimbursed $3,562 more
   than was initially awarded. The additional amount was taken from the
   State Administrative Agency’s management and administration account to
   supplement the subgrantee’s request and Centralized Services was not
   advised.

   According to the Centralized Services Administrator, the State
   Administrative Agency did not always compare submitted invoices with
   the award amount and overpayments could be made. If State
   Administrative Agency judged an invoice as proper for payment, State
   Administrative Agency directed the Centralized Services Division to
   reimburse the subgrantee. Additionally, according to a June 30, 2009,
   Single Audit Report performed by the Montana Legislative Audit
   Division, the State Administrative Agency did not follow department
   controls. These included project management invoices that were not
   approved by a project director and $4,654 of costs which were paid
   without meeting documentation requirements.

   The State Administrative Agency did not place sufficient priority on
   adherence to required internal control procedures. This lack of attention
   was confirmed as the State Administrative Agency did not maintain an
   up-to-date and complete subgrantee filing system, did not perform
   reconciliations between award amounts and invoices, and did not share
   needed information with the Centralized Services Division as the
   designated payment office.

   Because the Montana State Administrative Agency did not exercise
   financial management of all subawards including compliance with
   applicable federal requirements, the State of Montana was unable to
   determine the actual status of State Homeland Security Program grant
   funding. The danger of overdrawing accounts was clearly present without
   a working subgrantee fund balance. In addition, without obtaining
   supporting documentation before paying subgrantees, $938,601 was
   unsupported. With no clear indication by type of expenditure, neither the
   State Administrative Agency nor DHS could assess the true costs of
   program performance.




The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 17

   Recommendations
            We recommend that the Assistant Administrator, Grant Programs
            Directorate, require the Administrator, Montana Disaster and
            Emergency Services to:

            Recommendation #10: Revise the State Administrative Agency’s
            existing financial internal control system to ensure that policies
            and procedures enable a comprehensive accounting of individual
            subgrantee finances from initial award to grant closeout.

            Recommendation #11: Establish procedures to ensure that the
            Centralized Services Division receives all financial information
            necessary to ensure that payments are properly authorized and that
            account balances are kept current.

            Recommendation #12: Establish procedures to include periodic
            inspections of subgrantee supporting documentation for
            reimbursement requests.

            Recommendation #13: Provide adequate documentation for the
            unsupported subgrantee reimbursements or recover the $938,601 in
            State Homeland Security Program grant funds for return to FEMA.

   Management Comments and Auditors’ Analysis
            FEMA concurred with the findings and recommendations. FEMA
            stated that Montana Disaster and Emergency Services should
            review drawdown subgrantee requests to ensure that costs are
            allowable, allocable, and reasonable within the grant funded
            projects. FEMA will request that the Montana Disaster and
            Emergency Services, within 60 days of receipt of the final report,
            revise its existing financial internal control system to ensure that
            policies and procedures enable a comprehensive accounting of
            individual subgrantee finances from initial award to grant closeout.

            FEMA will also request the State to establish procedures to ensure
            that the Centralized Services Division receives all financial
            information necessary to ensure that payments are properly
            authorized and that account balances are kept current. The State
            will also be requested to establish procedures to include periodic
            inspections of subgrantee supporting documentation such as time
            allocation sheets, receipts, and contracts. Both actions are to be
            completed within 60 days of receipt of the final report.


The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 18

            Regarding the $938,601 in unsupported subgrantee requests,
            FEMA agrees that Montana should provide adequate
            documentation or return the questioned amount. FEMA has
            requested that Montana Disaster and Emergency Services provide,
            within 90 days of receipt of the final report, adequate supporting
            records which FEMA will review for reasonableness. FEMA
            requested that recommendations 10 through 13 be resolved and
            open pending implementation of the stated corrective actions.

            Montana Disaster and Emergency Services officials also agreed
            with the finding and recommendations, noting that the State has
            followed and been in compliance with federal requirements for
            financial grant management. The officials stated that a full review
            of State and federal financial requirements, in addition to utilizing
            current and future technologies and any necessary revisions of
            internal financial controls, was being conducted.

            State officials also said that the sharing of award and programmatic
            information with its centralized payment office has been enhanced
            via a shared computer drive and more frequent electronic
            communication. State officials stated they will also review and
            make necessary changes to their policies, specifically requiring
            supporting documentation for all expenditures, and that an
            electronic file management system was being developed to store
            and access documents.

            Concerning our recommendation relating to the unsupported
            subgrantee reimbursements of $938,601, Montana Disaster and
            Emergency Services officials provided documentation in
            conjunction with their comments on the draft report. Our review
            of the submitted purchase orders, invoices, vouchers, and payroll
            timesheets concluded that the reimbursements were fully supported
            by appropriate documentation. As a result, we consider the
            $938,601 fully accounted for and no longer questioned.

            If properly implemented, the corrective actions proposed by
            FEMA and the State will resolve the condition identified during
            the audit. Recommendations 10, 11, and 12 are considered
            resolved, but will remain open until the corrective actions have
            been implemented. Recommendation 13 is considered resolved
            and closed.




The State of Montana’s Management of State Homeland Security Program Grants 

               Awarded During Fiscal Years 2007 through 2009 


                                  Page 19

Appendix A
Purpose, Scope, and Methodology

                      The objective of this audit was to determine whether the State of
                      Montana distributed and spent State Homeland Security Program
                      grant funds strategically, effectively, and in compliance with laws,
                      regulations, and guidance. The goal of this audit is to identify
                      problems and solutions in order to assist FEMA and the State to
                      improve the nation’s ability to prevent and respond to all hazards
                      on a local as well as a statewide level.

                      The scope of this audit included the plans developed by the State to
                      improve preparedness and all hazards response, the goals set
                      within those plans, the measurement of progress towards the goals,
                      and the assessments of performance improvement that result from
                      this activity. Further, the scope included the assessment of these
                      activities within the context of risk to determine if the State’s plans
                      produced strategic performance improvements related to the
                      highest areas of risk rather than merely producing improvements in
                      a broader sense.

                      Together, the entire Homeland Security Grant Program and its five
                      interrelated grant programs fund a range of preparedness activities,
                      including planning, organization, equipment purchase, training,
                      exercises, and management and administration costs. Because of
                      the interrelationship of these grant programs, all were considered
                      when evaluating the planning cycle and the effectiveness of the
                      overall grant program. However, only State Homeland Security
                      Program funding together with the equipment and programs
                      supported by that funding was reviewed for compliance.

                      Within Montana, we visited 22 total sites which included the State
                      Administrative Agency and 21 subgrantees as shown below:

                      Montana Disaster and Emergency Services, State Administrative
                      Agency

                      Montana State Agencies
                         Department of Administration
                         Department of Corrections
                         Department of Justice
                         Governor’s Office of Community Service
                         Interoperability Montana
                         Montana Highway Patrol




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                            Page 20

Appendix A
Purpose, Scope, and Methodology

                     Cities
                          Billings
                          Helena

                     Counties
                         Flathead
                         Gallatin
                         Hill
                         Jefferson
                         Judith Basin
                         Lewis and Clark
                         Missoula
                         Park
                         Pondera
                         Richland
                         Roosevelt
                         Yellowstone

                     Native American Tribe
                         Confederated Salish and Kootenai Tribes

                     The HSGP awards to Montana for fiscal years 2007 through 2009
                     included the following programs and awards:

                                         Homeland Security Grant Program
                                             FYs 2007 through 2009

                       Funded Activity       FY 2007      FY 2008        FY 2009          Total

                     State Homeland
                     Security Program       $3,820,000    $6,170,000     $6,524,500     $16,514,500

                     Law Enforcement
                                                           Not            Not
                     Terrorism              $2,730,000                                   $2,730,000
                                                         Applicable     Applicable
                     Prevention Program
                     Citizen Corps
                     Program                 $136,289       $136,893      $136,658        $409,840

                     Grand Total            $6,686,289    $6,306,893     $6,661,158     $19,654,340

                     Source: Federal Emergency Management Agency

                     The 22 sites visited received:
                         90% of the 2007 SHSP grant,
                         99% of the 2008 SHSP grant, and
                         83% of the 2009 SHSP grant.


          The State of Montana’s Management of State Homeland Security Program Grants
                         Awarded During Fiscal Years 2007 through 2009 


                                           Page 21

Appendix A
Purpose, Scope, and Methodology

                      At each location, we interviewed responsible officials, reviewed
                      documentation supporting State and subgrantee management of the
                      awarded grant funds (including expenditures for equipment,
                      training, and exercises), and at each location where grant funds
                      were used to procure equipment, physically inspected some of the
                      items. In addition, we met with first responder representatives,
                      such as police and sheriffs’ departments, to discuss grant processes
                      and the benefits that grant funds have brought to their organization
                      and communities.

                      We conducted reviews at FEMA headquarters, State of Montana
                      offices, regional law enforcement organizations, county and city
                      subgrantee organizations, and a Native American tribe. At these
                      locations, the audit team conducted interviews with key officials
                      directly involved in the management and administration of the
                      State of Montana Homeland Security Grant Program. To
                      determine the effectiveness of Montana’s grant program as well as
                      compliance with Montana’s Homeland Security Strategy and
                      applicable grant requirements, the team reviewed and analyzed
                      data related to grant management and associated processes
                      identified by the team and discussed with Montana state officials
                      during the audit.

                      We conducted the audit between December 2010 and May 2011, in
                      accordance with Government Auditing Standards as prescribed by
                      the Comptroller General of the United States (2007 Revision).
                      Those Standards require that we plan and perform the audit to
                      obtain sufficient, appropriate evidence to provide a reasonable
                      basis for our findings and conclusions based upon our audit
                      objectives. We believe that the evidence obtained provides a
                      reasonable basis for our findings and conclusions based upon our
                      audit objectives.

                      Although this audit included a review of costs claimed, we did not
                      perform a financial audit of those costs. This was a performance
                      audit as defined by Chapter 1 of the Standards, and included a
                      review and report of program activities with a compliance element.
                      Foxx & Company was not engaged to and did not perform a
                      financial statement audit, the objective of which would be to
                      express an opinion on specified elements, accounts, or items.

                      Accordingly, Foxx & Company was neither required to review, nor
                      express an opinion on, the costs claimed for the grant programs
                      included in the scope of the audit. Had Foxx & Company been
                      required to perform additional procedures, or conducted an audit of

          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                            Page 22

Appendix A
Purpose, Scope, and Methodology

                      the financial statements in accordance with generally accepted
                      auditing standards, other matters might have come to their
                      attention that would have been reported. This report relates only to
                      the programs specified and does not extend to any financial
                      statements of the State of Montana.

                      While the audit was being performed and the report prepared under
                      contract, the audit results are being reported by the DHS Office of
                      Inspector General to appropriate Federal Emergency Management
                      Agency and State of Montana officials.




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                            Page 23

Appendix B
Management Comments to the Draft Report



                                                                                   u.s. Dell:lrtmcnt of Homelnnd Seeurity
                                                                                   Washinglon. DC 20472




                                              OCT 05 2011

        MEMORANDUM FOR:                Anne L. Richards
                                       Assistant Inspector General for Audits
                                       Office of Inspector General
                                        ~.~",,"",                         fir
        FROM:                          David J. Kaufinan             '
                                       Director
                                       Office of Policy and Program Analysis

        SUBJECT:                       Federal Emergency Management Agency's (FEMA's) Response to
                                       Draft OIG Report, The State ofMontana Management ofState
                                       Homeland Security Program (SHSP) and Urban Areas Secllrity
                                       Initiatives (UASJ) Grants Awarded during Fiscal Years 2007 through
                                       2009


        Thank you for the opportunity to comment on your draft report. The findings in the report will be
        used to strengthen the effectiveness and efficiency of how we execute and measure our programs.
        We recognize the need to continue to improve the process, including addressing the
        recommendations raised in this report. Our responses to the recommendations are as follows:

        OIG Recommendation #1: We recommend that the Assistanl Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to develop strategic
        goals and objectives applicable to capabilities that are specific, measurable, achievable, results-
        oriented, and time limited.

        FEMA Response: FEMA concurs with this recommendation.

        It will benefit the State to be able to assess their capabilities on an ongoing basis if they have clearly
        stated strategic goals and objectives. FEMA will request the Director, Montana Disaster and
        Emergency Services (MT DES) develop strategic goals and specific objectives applicable to
        capabilities. The State should identify means of measurement for each goal and objective, ensure
        they are reasonably achievable within the time period allocated for each grant award and identify
        specific timeframes for completion and articulate end results.

        The strategic goals and objectives should include:

                a) Specific goals and objectives which directly relate to the State Homeland Security
                   Strategy;



                                                                                   www.fcma.gov




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                      Page 24

Appendix B
Management Comments to the Draft Report




               b) Identify how each goal and objective will be measured for success and progress
                  towards completion;
               c) Identify a clear timeframe for achieving the goal and objective;
               d) If the goal will span multiple years and longer term objectives, identify which grant
                  programs might align to those goals and what plans are being developed to ensure the
                  end goal or objective can be reached; and
               e) Identify the end result of each goal and objective (Le., what capability will be
                  enhanced, how, for how long, who will be impacted, how will they be impacted).

        This outline ofstrategic goals and objectives should be submitted to the assigned FEMA
        program analyst within 90 days of receipt of the final report via the grantee notification.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to develop
        performance measures and collect and analyze performance data from subgrantees to measure
        progress towards achieving goals and objectives.

        FEMA Response: FEMA concurs with this recommendation.

        At this time, there is not sufficient evidence that the State is aware of the progress subgrantees
        are making against the goals and objectives stated in applications. This is largely due to a
        shortage of staff assigned to financially and programmatically manage and oversee FEMA
        awards. Additional staff should be allotted to overseeing the programmatic implementation and
        administration ofFEMA awards to enhance the State's abilities to effectively manage FEMA
        awards. FEMA will request the Director ofMT DES develop performance measures and collect
        and analyze performance data from subgrantees to measure progress towards achieving goals and
        objectives.

        Further, FEMA will direct the Director ofMT DES to ensure that there is sufficient qualified
        staff to programmatically and financially oversee and administer all awards issued by FEMA.
        Qualified staff assigned to oversee the implementation ofFEMA programs should, at a
        minimum, include subject matter experts with experience in emergency planning, emergency
        operations, first responder equipment, first responder/emergency management training, first
        responder/emergency management exercises, and interoperable communications. Qualified staff
        assigned to oversee the management and administration ofFEMA grant programs should include
        subject matter experts in the management of federal grant awards or be provided formal ongoing
        training to begin within 60 days of hire date.

        The State of Montana's performance measurement of subgrantees should include:

                a) Clearly stated milestones and timeframes for completion;
                b) Progress toward meeting goals and objectives;
                c) Challenges or delays in meeting goals and objectives;


                                                                                                         2




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                     Page 25

Appendix B
Management Comments to the Draft Report




               d) Actions the state is taking to assist with challenges, delays, or lack of progress; and
               e) Anticipated completion date of each goal and objective.

        These actions will be completed by MT DES within 90 days ofreceipt of the final report via the
        grantee notification. Updates will be sent to the assigned FEMA Program Analyst every 90 days
        until the corrective actions are complete.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to require sub-
        grantees to use the performance measures to report activity accomplishments in quarterly
        progress reports, including the status of goals, objectives, and milestone achievements.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request the Director, MT DES require subgrantees to use the performance measures
        to report activity accomplishments in quarterly progress reports, including the status ofgoals,
        objectives, and milestone achievements.

        Quarterly reporting from subgrantees should include:

               a) Clearly stated goals and objectives with milestones and timeframes for completion;
               b) Progress toward meeting goals and objectives;
               c) Challenges or delays in meeting goals and objectives and how these are being
                  addressed; and
               d) Anticipated completion date of each goal and objective.

        These actions will be completed by MT DES within 90 days of receipt of the final report via the
        grantee notification. Updates will be sent to the assigned FEMA Program Analyst every 90 days
        until the corrective actions are complete.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #4: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to summarize the
        progress reported each quarter by program and incorporate the progress and projected funding
        needs into the State's process for preparing subsequent years' applications for Homeland
        Security Grant Program funds.

        FEMA Response: FEMA concurs with this recommendation.




                                                                                                            3




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                    Page 26

Appendix B
Management Comments to the Draft Report




        FEMA will request the Director, MT DES summarize the progress reported each quarter by
        program and incorporate the progress and projected funding needs into the State's process for
        preparing subsequent years' applications for Homeland Security Grant Program funds.

        Application Review for subsequent years should include at a minimum:

               a) Statns of subgrantee programmatic and financial reporting (i.e., have reports been
                  submitted? Have they been submitted on time?);
               b) Progress of subgrantee on related projects (Le., if the projects being proposed build on
                  capabilities funded by earlier grant awards are those earlier projects complete'!
                  Incomplete? Is the completion contingent on the funding being requested?);
               c) Is the applicant drawing funds down regularly? -- and
               d) What capabilities are being built or enhanced?

        These actions will be completed by MT DES within 120 days of receipt of the final report via the
        grantee notification. Updates will be sent to the assigned FEMA Program Analyst every 90 days
        until the corrective actions are complete.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #5: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to establish policies
        and procedures to enforce the property management requirements for equipment purchased with
        federal funds by subgrantees.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request the Director, MT DES establish policies and procedures to enforce the
        property management requirements for equipment purchased with federal funds by subgrantees.
        Policies and procedures for property management of equipment purchased with federal funds
        should include at a minimum:
               a) Processes for equipment control management to include DES responsibilities, sub-
                  grantee responsibilities and property identification requirements;
               b) Processes for equipment acquisition;
               c) Process for transferring of property;
               d) Process for disposition of property;
               c) Process for lost, stolen, or damaged property; and
               f) Annual inventory requirements and equipment inventory templates. Equipment
                  inventory templates which identify date of inventory, equipment name, identifying
                  information such as serial numbers, purchase date, purchase price, grant program
                  equipment was purchased under, location of equipment, disposition of equipment,
                  and name of individual taking the inventory.

        These actions will be completed by MT DES within 45 days of receipt of the final report via the
        grantee notification and will be sent to the assigned FEMA Program Analyst.


                                                                                                          4




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                   Page 27

Appendix B
Management Comments to the Draft Report




        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #6: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to require sub-
        grantees to furnish plans for performing biennial physical inventories within a specified
        timeframe and to provide details on how all subgrantees will become compliant with property
        management requirements.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request the Director ofMT DES to furnish plans for performing annual physical
        inventories within a specified timeframe and to provide details on how all subgrantees will
        become compliant with property management requirements.

        FEMA will request the Director ofMT DES, as a part of a comprehensive monitoring protocol,
        request subgrantees furnish copies of annual inventory templates, questions relating to the
        maintenance of equipment; location of equipment; labling of equipment; transfer of equipment;
        lost, stolen or damaged equipment; and disposition of equipment.

        These actions will be completed within 60 days of receipt of the final report via the grantee
        notification and updates will be sent to the assigned FEMA Program Analyst every 90 days until
        the corrective actions are complete.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #7: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to clarify ownership
        of equipment furnished with federal funds particularly with arrangements between
        Interoperability Montana and its partner subgrantee jurisdictions.

        FEMA Response: FEMA concurs with this recommendation.

        During conference calls and follow-up correspondence on June 9, 2011, FEMA requested an
        inventory listing of all equipment purchased by Interoperability Montana since 2006. FEMA
        will request the Director of MT DES clarify ownership ofequipment furnished with federal
        funds, particularly with arrangements between Interoperability Montana and its partner
        subgrantee jurisdictions.

        FEMA will request the Director ofMT DES provide the requested inventory of all equipment
        purchased by Interoperability Montana using any past or currently active FEMA Homeland
        Security Grant funds to include the following information:

               a) Equipment name;
               b) Identifying information such a serial numbers, etc.;


                                                                                                        5




         The State of Montana’s Management of State Homeland Security Program Grants 

                        Awarded During Fiscal Years 2007 through 2009 


                                                   Page 28

Appendix B
Management Comments to the Draft Report




               c)   Purchase date;
               d)   Purchase price;
               e)   Grant program and applicable year equipment was purchased under;
               t)   Location of equipment;
               g)   Disposition of equipment; and
               h)   Jurisdiction responsible for equipment.

        These actions will be completed within 30 days of receipt of the final report via the grantee
        notification and will be sent to the assigned FEMA Program Analyst.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #8: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to establish policy
        and monitoring procedures that include the frequency of visits, methodology for selecting sub-
        grantees to visit, and a protocol for reviewing financial and performance related activities during
        the visits.

        FEMA Response: FEMA concurs with this recommendation.

        Monitoring subgrantees is critical to ensuring that projects are being executed as planned and
        that subgrantees are within compliance of the terms of their grant agreements. FEMA will
        request that the Director, MT DES establish policy and monitoring procedures that include the
        frequency of visits, methodology for selecting subgrantees to visit, and a protocol for reviewing
        financial and performance related activities during the visits.

        The updated policy and monitoring procedures should include:

               a) A clear method for selecting subgrantees to be visited;
               b) The number or frequency of monitoring visits each year for all FEMA Homeland
                  Security Grant Programs;
               c) The protocols to be followed during the monitoring visits; and
               d) Process to review and conduct analysis of subrecipient's financial, programmatic and
                  administrative policies and procedures, such as:
                      1. accounting for receipts and expenditures,
                     2. cash management, maintaining adequate financial records,
                     3. means of allocating and tracking costs,
                     4. contracting and procurement policies and records,
                     5. payroll records and means of allocating staff costs,
                     6. property/equipment management system(s),
                     7. progress of project activities.

        These actions will be completed within 90 days of receipt of the final report via the grantee
        notification and updates will be sent to the assigned FEMA Program Analyst every 90 days until
        the corrective actions are complete.


                                                                                                            6




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                     Page 29

Appendix B
Management Comments to the Draft Report




        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #9: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to develop a
        unifonn set of procedures for monitors to use during evaluations of subgrantee program
        perfonnance to ensure consistency in the scope and methodology of the evaluations from
        subgrantee to subgrantee.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request that the Director, MT DES establish a unifonn set of monitoring procedures
        to facilitate consistency in the scope and methodology of the evaluation of subgrantees.

        The protocols to be followed during the monitoring visits should review subrecipient's financial,
        programmatic and administrative policies and procedures including:

                       I.   Accounting for receipts and ex.penditures;
                       2.   Cash management, maintaining adequate financial records;
                       3.   Means of allocating and tracking costs;
                       4.   Contracting and procurement policies and records;
                       5.   Payroll records and means of allocating staff costs;
                       6.   Property/equipment management system(s); and
                       7.   Progress of project activities.

        Within 120 days of receipt of the final report via the grantee notification, FEMA will require the
        MT DES to complete these protocols and send updates to the assigned FEMA Program Analyst
        every 90 days until the corrective actions are complete.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #10: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to revise the State
        Administrative Agency's existing financial internal control system to ensure that policies and
        procedures enable a comprehensive accounting of individual subgrantee finances from initial
        award to grant close-out.

        FEMA Response: FEMA concurs with this recommendation.

        Currently, funds are paid out by the Centralized Services Division without being first reviewed
        by the Office of Homeland Security (OHS) for programmatic compliance. The OHS should
        review the drawdown requests first to ensure costs are allowable, allocable, and reasonable
        within the grant funded projects.



                                                                                                          7




         The State of Montana’s Management of State Homeland Security Program Grants 

                        Awarded During Fiscal Years 2007 through 2009 


                                                    Page 30

Appendix B
Management Comments to the Draft Report




        FEMA will request the Director, MT DES revise the State Administrative Agency's existing
        financial internal control system to ensure that policies and procedures enable a comprehensive
        accounting ofindividual subgrantee finances from initial award to grant close-out.

        Policies and procedures for financial internal control should at a minimum include:

           a) Who is responsible for programmatic review and approval of reimbursement requests;
           b) Procedures to account for individual subgrantee finances for each separate grant award
              from initial award to grant close-out;
           c) Identification and location of required supporting documentation (i.e., time allocation
              sheets, receipts, contracts);
           d) Identification of match requirements;
           e) Identification of program income;
           f) Cross check of equipment purchased with the Responder Knowledge Base, Travel
              policies; and
           g) Cross check of approvals for overtime & backfill, Environmental Historic Preservation
              requirements, training requests, and sole source contracts.

        These actions will be completed by MT DES within 60 days of receipt of the final report via the
        grantee notification and updates will be sent to the assigned FEMA Program Analyst every 90
        days until the corrective actions are complete.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #11: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to establish
        procedures to ensure that the Centralized Services Division receives all financial information
        necessary to ensure that payments are properly authorized and that account balances are kept
        current.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request that the Director, MT DES establish procedures to ensure that the
        Centralized Services Division receives all financial information necessary to ensure that
        payments are properly authorized and that account balances are kept current.

        Procedures for distribution of FEMA award information should include:

           h) Provide copies of award documents and any adjustments to awards to the Centralized
              Services Division; and
           i) Provide copies of award documents and any adjustments to awards to any individual with
              programmatic or financial responsibility for FEMA awards administration or
              management.




                                                                                                          8




         The State of Montana’s Management of State Homeland Security Program Grants 

                        Awarded During Fiscal Years 2007 through 2009 


                                                    Page 31

Appendix B
Management Comments to the Draft Report




        These actions will be completed by MT DES within 60 days ofreceipt of the final report via the
        grantee notification and updates will be sent to the assigned FEMA Program Analyst every 90
        days until the corrective actions are complete.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #12: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to establish
        procedures to include periodic inspections of subgrantee supporting documentation for
        reimbursement requests.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request the Director, MT DES establish procedures to include periodic inspections of
        subgrantee supporting documentation for reimbursement requests. As part of an ongoing
        comprehensive monitoring plan, MT DES should develop procedures to periodically and
        randomly request supporting documentation (i.e., time allocation sheets, receipts, contracts, etc.).

        These actions will be completed by MT DES within 60 days of receipt of the final report via the
        grantee notification and updates will be sent to the assigned FEMA Program Analyst every 90
        days until the corrective actions are complete.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.

        OIG Recommendation #13: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director, Montana Disaster and Emergency Services to provide adequate
        documentation for the unsupported subgrantee reimbursements or recover the $938,601 in State
        Homeland Security Program grant funds for return to FEMA.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request the Director, MT DES provide adequate documentation for the unsupported
        subgrantee reimbursements or recover the $938,60I in State Homeland Security Program grant
        funds for return to FEMA.

        MT DES should provide the assigned FEMA program analyst with adequate supporting
        documentation for questioned costs identified below within 90 days ofreceipt of the final report
        via the grantee notification. Based on the documents provided, FEMA will review the $938,601
        for reasonableness.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective action.




                                                                                                           9




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                     Page 32

Appendix B
Management Comments to the Draft Report




        We thank you, again, for the opportunity to review and update our comments to your
        recommendations contained in your final report. Should you have further questions regarding
        our response, please do not hesitate to call FEMA's ChiefAudit Liaison, Brad Shefka, at 202-
        646-1308.                                         '




                                                                                                       10




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                  Page 33

Appendix B
Management Comments to the Draft Report




                     DEPARTMENT OF MILITARY AFFAIRS
                              DISASTER & EMERGENCY SERVICES DIVISION
                        www.montanades.org                                             Brian Schweitzer, Governor


                                       STATE OF MONTANA
                     (406) 324-4777           1956 Mt. Majo Street, P.O. Box 4789    Fort Harrison, Montana 59636-4789




       September 30, 20 II

       Ms. Rhonda Honegger
       Program Analyst, Western Division
       DHS/FEMA
       800 K Street, NW
       Washington D.C. 20472-3625

       RE: Office of Inspector General Audit Response

       Dear rVls. Honegger:

       On behalf of the Montana Department of Military Affairs, Disaster and Emergency Services
       Division (DES), this letter is intended to serve as response to the recommendations made by the
       Department of Homeland Security (DHS), Office of Inspector General relative to their audit of the
       State of Montana's management of the State Homeland Security Program that were awarded during
       the Federal Fiscal Year 2007 through 2009.

       Montana Disaster and Emergency Services would like to express our sincere appreciation for the
       efforts of all of the representatives of the Department of Homeland Security Office oflnspector
       General's Office and Foxx and Company for their dedication in assisting Montana with its elTorts to
       improve processes and procedures for the effective and efficient management of the Homeland
       Security Grant Programs. It has truly been a pleasure working with all of tile parties involved and an
       education for me personally, as the new administrator for Montana DES.


         Measurement ofGoals {mt! Objectives

          DES DIVISION NARRATIVE:

          Montana DES updated the State Homeland Security Strategy in January 0£201O. Montana DES
          continues its efforts inl1lonitoring sub-recipients' goals and objectives using the sub-recipient's
          application, the award letter that identifies the goals, objectives and milestones, quarterly progress
          reports, implementing new policies and procedures and requiring sub-recipients to submit an
          After Action Report at the end of the grant perfonnance period.




                                       MONTANA DEPARTMENT OF MILITARY AFFAIRS
                                      DISASTER AND EMERGENCY SERVICES DIVISION
                                                          1 018




           The State of Montana’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2007 through 2009 


                                                           Page 34

Appendix B
Management Comments to the Draft Report




         Recommendations

         \Ve recommend that the Assistant Administrator, Grant Programs Directorate. require the
         Director, IvlontMa Disaster and Emergency Services to:



         Recommendation #1: Del'e1op strategic gO(lls and objectil'es applicable to c(lpabilities t!tat are
         specific. 1'1U!asurahle. achievahle. resulLs-oriented. and time limited.

         Response:
         Montana Disaster and Emergency Services (DES) agrees with this recommendation and has
         alrcady takcn stcps to improve CutTcnt procedures. II/fontana DES sets cach sub-recipient·s
         measurable goals and objectives using the individual sub-recipient's grant application submitted
         to the stak. Each applicant must mcet a number orrcquiremcnts and set measurable goals and
         objectives that fit within the State Preparedness Report, Homeland Security Strategy goals and
         objectives, Targd Capabilities and the National Priorities. \fontana DES recognizes that the
         State's goals and objectives in the past have been too broad-based, and is in the process of making
         them more specific.

         Montana DES paI1icipated in FE~vlA provided Teclmical Assistance Training September 27-30,
         2011 to obtain guidance and suggestions to facilitate improvement. Redesigned grant fonns such
         as applications detailing measurable objectives are to be used staI1ing immediately. 2011 State
         Homeland Security Grantecs will receive a conditional award letter until their applications arc
         revised to meet grant requirements including specific measureable goals and objectives to be
         complekd during thc !,'fant pcriod and returned to thc Division by Deccmbcr, 2011. lllcsc goals
         'will include time lines and milestones as well as close-out and sustainment plans before grant
         projects can begin. All applications must include project plans linked to specified investment
         justifications.

         In addition. Montana DES will begin the process to review and revise the State Strategic Plan in
         coordination with the Senior Advisory Committee (SAC) and the Governor's OUice by March 31,
         2012. The plan will be updated to include measureable objectives with specific results and
         timelines for work on identified capabilities.

                        '''ill   be fully implemented by :\larch 31, 2012



         Recommendation #2: Develop performance measures and collect alld ana(v:;e performance
         data from subgmnfees to me(lSIlre progress towards achiel'ing goals and objectives.

         Response-:
         Montana DES agrees with this recommendation and has already taken steps to improve current
         procedures. The Technical Assistance held September 27-30.2011, assisted DES to create
         improved applications. reporting, and grant management tools. Progress on the measurable
         objectives detailed during the application process will be reported to 1\,10ntana DES by sub-
         recipients on a quarterly basis using expanded programmatic and financial repol1ing fOllns clearly
         demonstrating project progress. Progress will be specifically measured by a listing and percentage


                                    MONTANA DEPARTMENT OF MILITARY AFFAIRS
                                   DISASTER AND EMERGENCY SERVICES DIVISION
                                                     2of8




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                      Page 35

Appendix B
Management Comments to the Draft Report




         of individual tasks completion, a reconciliation of financial status, and an explanation of
         challenges and any possible delays or changes.

         During any grant application pcriod, a pancl (not thc SAC) comprised of DES managemcnt
         personnel will review grant applications for completeness including measureable objectives tied
         lo specific national and state priorities. Applications deficient in these areas will be rdnmed to
         potential sub-recipients for revision prior to their presentation to the SAC for consideration. The
         SAC will include Subject \-falter Experts that will review and make reL'ommendations of
         applications in their area of expertise. Applications for review and consideration must fit within
         the state priorities.

                        PartiaDy implemented, fuD implementation by December 31, 2011




         Recommendation #3: Require Sl/bgramees to use the performance meaSl/res to report activity
         accomplishments in quarter~I'progress reports, inducting the .\·tatu.V ofgCJ(lls, objectives, and
         milestone adlievemellts.

         Response:
         MontiUla DES agrees with this recommendation and has already taken steps to improve eunent
         procedures. Progress on the measurable goals and objectives detailed during the application
         process will be reported to r-;[onlana DES by the snb-recipicnts on a quarterly basis using progress
         reports detailing project and milestone completion status. Ifthe progress or the repoliing of
         progress is not suflieient the sub-recipient will be identified for monitoring, technical assistilllce,
         andlor up to withholding oftllllds until satisfactory progress is made.

                        Pal"tially implemented, fuJI implementation b.y October 31,2011




         Recommendation #4: Sununarize the progren' reported each quarter b,v program and
         incorporate the progress and projecfedfundillg needs into tile State's process for preparing
         subs'equent,vears' applications for Homeland SeCllrity Grant Programfimds.

         Response:
         Montana J)ES agrees with this recommendation and has already taken steps forward to improve
         its current procedures. Improved reports summarizing the progress of subgrantee projects will be
         submitted quarterly to FE!vIA via email on a simple document as there is no opportunity to submit
         such reports via website portals. A projects' effectiveness and impact on !vlontana's security will
         he considcred hy DES and the SAC when preparing for future ycars' Homeland Security Grant
         Program applications.

                        Partially implemented, full implementation b:y October 31,2011




                                  MONTANA DEPARTMENT OF MILITARY AFFAIRS
                                 DISASTER AND EMERGENCY SERVICES DIVISION
                                                     30f8




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                      Page 36

Appendix B
Management Comments to the Draft Report




         Complitlnce with Property Management Requirements
         DES DIVTSIO:,/ NARRATIVE:

         Montana DES rcquircs thc grant sub-rccipicnts to t,)l1ow all Codc of Fcdcral Rcgulations. grant
         guidance and Montana DES Division's intemal policies and procedures. Montana DES includes
         fedcrally providcd Assuranccs and Conditions pCl1aining to propcrty managcmcnt on cvcry award
         letter to sub-recipients. J\·Iontana DES also provides to the sub-recipients the proper Department
         ofHomdand Scc'urity (DRS) markers to alIi,. to equipment purehascd with grant funds. I\Iontana
         DES has in place an equipment tracking spreadsheet for the sub-recipient to use as a tool for their
         elluipment mill1agemenL

         Recom menda lion s

         We recommend that the Assistant Administrator, Grant Programs Directorate, require the
         Director, Montana Disaster and Emergency Services to:


         Recommendalioll #5: F:.~tablish policies and procedure.~ to ellforce the property management
         requirement~·for
                        equipment purchased with federal jiwds by subgrrllltees.

         Response:
         Montana DES agrccs with this rccommcndation and has alrcady takcn stcps to improvc cuncnt
         procedures. ;\ review and update of Montana DES's property management policies will be
         completed by December 31,2011. Cpdates to Ille policies will include an inventory schedule and
         a listing of items requiring tracking such as all equipment over $5,000, radios, projectors,
         camcras, computcrs, printcrs, amI othcr e1edronic itcms. DES will rClJuirc a physical invcntory of
         materials no less than every two years, but is considering an annual requirement. Improved
         inventory fonns will be distributed to all sub-recipients to facilitak the physical inventory
         proccdurc.

                        Pa."tially implemented, fuJI implementation by December 31, 2011


         Recommendaliotl #6: Require subgramees to jilrnish plans for performillg biellllial physical
         inl'entories withill a ~pecifietl timeframe anti to prOl'iLle tletails on how all sllbgralltees will
         become compliant with property mallagemellt reqrlirements.

         Response:
         MonUma DES agrees with this recommendation and has already taken steps to improve ,'lInent
         procedures. Improve:d inventory fonus will be distributed to all sub-recipients to facilitate the
         physical inventory procedure. A schedule of inventory due: daus for subgrantees will be
         establishe:d for all ongoing grant years, with special e:mphasis on the cune:nt and future: years'
         grants. Future: subgrantee:s will be required to submit, willI their application, inventory and
         control scheduling in accordancc to grant requircmcnts.

                        P:II"tiaUy implemented, full implementation b)' Del,ember 31, 2011




                                  MONTANA DEPARTMENT OF MILITARY AFFAIRS
                                 DISASTER AND EMERGENCY SERVICES DIVISION
                                                     4of8




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                      Page 37

Appendix B
Management Comments to the Draft Report




         RecommeJIdatioll # 7: Clarijr ownership ofequipmellt fumished with federal funds
         particularly wilh arrangemellt.\· between lnteroperability ,\.fontana allll its partner subgrantee
         jurisdictiollli.

         Response:
         Montana DES agnxs with this recommendation and has alrcady takcn steps to improvc c'uncnt
         procedures. An inventory of equipment purchased by Interoperability Montana with federal grant
         funds has alrcady hecn obtained and verification has commenccd. Tntcropcrahility \of on11ma has
         also submitted equipment transfer letters outlining ownership. signed by their partner sub-
         griUltees. The new inventory [onus will be distributed to all interoperable commLlI1ieation sub-
         recipients to facilitate the physical inventory procedure, and equipment location will be monitored
         by l\fontana DES during the applicable grant period.

                        Partially implemented, full implementation by December 31,2011




         Sllbgrantee PerfOrmance MOilitoring

         DES   DIVISIO~ NARRATIVE:


         Mont/Ula DES maintains its compliance with all Federal requirements for sub-recipient
         monitoring, and as indicated in 2 CPR Part 215.51 and OUR Circular A-133 Compliance
         Supplement, Montana DES has been monitoring sub-recipient activities in fiscal years 2007.
         2008.2009,2010 and will continue to do so as required. Award letters to sub-recipients contain
         all required federal award infonllation (e.g., catalog of federal Domestic Assistance title and
         nU11lher, award name. nallle of the tederal awarding agency). DES provides all sub-recipients with
         "Assurances and Certifications" attached to every award letter, a DES grant management
         handbook IUld the Grant Guidance. Mont/Ulil DES sustains a filliUlcial management system to
         provide accurate, current and complete disclosure of the financial results of each federally-
         sponsored project or program in accordance with the reporting requirements set forth in §215.52.
         Circular A-133 allows a pass-through entity to use its discretion to detenlline how best to properly
         monitor their sub-recipients. VarioLls techniques sLlch as Desk Top monitoring, Site Visits
         monitoring, Quarterly Repolts are used to meet the goals of monitoring. Montana DES ha~ six (6)
         district representatives that regularly perfOlID site visit monitoring and technical support to all
         sub-recipients. DES receives audit finding updates through the Centralized Services Division and
         will follow-up and give corrective gtlidance on those audits through monitoring within six
         months. If a sub-recipient continues to hc out of compliance the DES Administrator will take
         these issues into consideration and take appropriate action.


         Recommendations

         \Ve recommend that the Assistant Administrator, Grant Programs Directorate, require the
         Director, Montana Disaster and Emergency Services to:




                                 MONTANA DEPARTMENT OF MILITARY AFFAIRS
                                DISASTER AND EMERGENCY SERVICES DIVISION
                                                    50f8




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                     Page 38

Appendix B
Management Comments to the Draft Report




         RecommeJIdatioll #8: Estflblisll policy alld mOllitorillg procedures tlUlt include tile freqlteJIcy
         (ifJ'i~its, methodalogyfar wiecting subgrantees to J'L\'it, and a protocalfar reJ'iewingfillfll1cial
         alld performallce related activities durulg the J'isits.

         Response:
         Montana DES agnxs with this recommendation and has alrcady takcn steps to improvc c'uncnt
         procedures. Active monitoring. both with Desk Top and Site Visits, have been greatly increased
         in the last year. The doc'lI111cntation 01' monitoring has heen enhanced, with greater preparation
         and documentation to follow during future monitoring. Guidance on Monitoring was a large part
         of the Tec1mical Assistance held for 1\10ntana DES on September 27-30, 20 II. A grant cycle will
         be developed to include scheduled monitoring, both by Desk Top and Site Visits by December 31,
         2011. This schedule will detail Desk Top monitoring of 100% of a.ll Montana's subgrantees mId
         Site Visits to one third of all sub grantees each year. Technology such as teleconferences. scanned
         documentation, photography and video will be used to combat geographic and climatic
         challenges, hut will not replace scheduled personal visitation ofsuhgrantees.

                        Pa''tially implemented, full implementation by December 31, 2011


         Recommendation #9: Develop a IIIIi/orm set ofprocedures for monitors to lise miring
         eJ'ai/lOtions ofsubgrantee program performance to ensure cOllsisteJIl)' in the scope and
         methodology ofthe evalltations from slIbgrantee to sllbgrantee.

         Response:
         Montana DES agrees with this recommendation and has already taken steps to improve cunent
         procedures. 'l11e Division currently has a standardized monitoring procedure, however, these
         policies and fonns will be reviewed and revised by J\·larch 31, 2012. Improved monitoring fonns
         designed during FEMA provided Technical Assistance training in September 20 II will be used
         during all monitoring visits. A full monitoring schedule of all sub-grantees ,vill be established by
         Deeemher31. 2011.

                        p,,,'tially implemented, full implementation b)' :\-Iardl 31, 2012




         Financial Management Controls

         DES DlVISIO:,\/ NARR-\.TIVE:

         Montana DES has followed and been in compliance with federal requirements for financial grant
         management. :vlontana DES partially relied on the assistanee of the budget analyst statfperson
         previously under the Centralized Services Division and under,100d the accounting requirements
         for the grll1lts ami financial management oversight.




                                 MONTANA DEPARTMENT OF MILITARY AFFAIRS
                                DISASTER AND EMERGENCY SERVICES DIVISION
                                                     6of8




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                      Page 39

Appendix B
Management Comments to the Draft Report




         Recommendations

         \Ve recommend that the Assistant Administrator, Grant Programs Directorate. require the
         Director, IvfontMa Disaster and Emergency Services to:

         Recommendation #1 0: Re~'ise ti,e Stllte ;1,lmillistrative i1genc.r·s existing financial imernal
         control ~J'stem to ensure th at policies alltl procedllre~' enable a comprehensil·e accounting of
         uulividual sllbgrallteefuulllces from initial award to grant close-out.

         Response:
         Monlima DES agrees with this recommendatiun and has already taken steps to improve cunenl
         procedures. i\ full review of state and t~deral financial requirements in addition to utilizing
         current iUld future technologies iUld any necessary revisions of internal financial controls will be
         completed by November 30. 2011.

                        Pal'tially implemented, full implementation by November' 30,2011


         RecommeJIdation #11: 1'-stabli~'11 procedures to ensure that the Centralized Services Division
         receive.~a/lfUraIU:ial information neces'sary to ensure that payments are properly authorized
         and tltat accoll/ll balO/lces are kept current.

         Response:
         IV[ontmra DES ah'l'ees with this recommendation and has already taken steps to improve c'unent
         procedures, 'lhe sharing of award financial and programmatic information between DES's grant
         office and Centralized Services Division has been enhanced via a shirred computer drive and more
         trequent electronic communication. 'lhe department is also in the process of establishing an
         electronic tile management system to store and access grant documents. Three binders of
         suppolting documentation have been recently provided to the auditors.

                        Pal'tially implemented, full implementation b)' :'/ovember 30,2011


         Recommendation #12: 1'-stabli~,1t procedures to illclrlde periodic mspeetions ofmbgrantee
         sllpportulf( documentation for reimbursement requests.

         Response:
         Montana DES agrees with this recommendation and has already taken steps to improve cunent
         procedures. Ivlontana's six District Representatives routinely verify siUuplings of supporting
         docllmentation during their visits to subgrantees. Expenditures over $5.000 or of questionable
         nature currently require suppolting documentation in order to be reimbursed. Montana DES will
         review and make any necessary revisions to their policies by October 31. 20 II. One known
         policy change will be the requirement for supporting documentation for all expenditures.

                        Partially implemented, full implementation by :'IIovember 30, 2011




                                 MONTANA DEPARTMENT OF MILITARY AFFAIRS
                                DISASTER AND EMERGENCY SERVICES DIVISION
                                                     7of8




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                                      Page 40

Appendix B
Management Comments to the Draft Report




         Recommelldation #13: Provide adeqllate docllmentation for the rlllSllpported sllbgrantee
         reimbllrsements' or recover the $938,601 ill State Homeland Secllrity Program grant fllnds for
         retllm to FEMA.

         Response:
         Montana DES agrees with this recommendation and has already taken steps to provide
         documentation to support the references expenditures. The Division is currently reviewing
         documentation procedures to ensure all invoices for reinlbursement are associated with the sub-
         grantee's grant file. Invoice supporting the $938,601 of expenditure have been included in the
         three binders given to the auditors.

                       Supporting Documentat.ion pl"Ovided on Septembel' 26,2011



       Sincerely,




       Ed Tinsley, Administrator of Montana Disaster & Emergency Services




       Cc:
       Adjutant General Walsh
       Sheena Wilson
       Bill Moore
       John Yakaitas
       Paul Grinlstad
       J.Lee Okeson
       Steve Knecht
       Jessica Davies




                                 MONTANA DEPARTMENT OF MILITARY AFFAIRS
                                DISASTER AND EMERGENCY SERVICES DIVISION
                                                   8of8




           The State of Montana’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2007 through 2009 


                                                   Page 41

Appendix C
Homeland Security Grant Program Background

                     The Homeland Security Grant Program provides federal funding to
                     help state and local agencies enhance their capabilities to prevent,
                     protect against, respond to, and recover from terrorist attacks,
                     major disasters, and other emergencies. The Homeland Security
                     Grant Program encompasses several interrelated federal grant
                     programs that together fund a range of preparedness activities,
                     including planning, organization, equipment purchase, training,
                     and exercises, as well as management and administration costs.
                     Programs include:

                     	   State Homeland Security Program provides financial
                          assistance directly to each of the states and territories to
                          prevent, respond to, and recover from acts of terrorism and
                          other catastrophic events. The program supports the
                          implementation of the State Homeland Security Strategy to
                          address the identified planning, equipment, training, and
                          exercise needs.

                     	   Urban Areas Security Initiative provides financial assistance
                          to address the unique planning, equipment, training, and
                          exercise needs of high risk urban areas, and to assist in building
                          an enhanced and sustainable capacity to prevent, respond to,
                          and recover from threats or acts of terrorism and other
                          disasters. Allowable costs for the urban areas are consistent
                          with the State Homeland Security Program. Funding is
                          expended based on the Urban Area Homeland Security
                          Strategies.

                     In addition, the Homeland Security Grant Program includes other
                     interrelated grant programs with similar purposes. Depending on
                     the fiscal year these include:

                         Metropolitan Medical Response System
                         Citizen Corps Program
                         Law Enforcement Terrorism Prevention Program
                          (through FY 2007)




         The State of Montana’s Management of State Homeland Security Program Grants 

                        Awarded During Fiscal Years 2007 through 2009 


                                           Page 42

Appendix D
Montana State Administrative Agency Organization Chart




                               Montana Department of Military Affairs




                                                    Department 
                                                     Director




  Disaster and 
                       Centralized                   Challenge     Air National    Army National    Veterans 
  Emergency                           STARBASE
                        Services                     Academy          Guard           Guard          Affairs
    Services




                             Source: Montana Department of Military Affairs
                                     (as of February 25, 2011)




                  The State of Montana’s Management of State Homeland Security Program Grants 

                                 Awarded During Fiscal Years 2007 through 2009 


                                                    Page 43

Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




          The State of Montana’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2007 through 2009 


                                            Page 44

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
